No. 19-247
IN THE

Supreme Court of the United States
CITY OF BOISE,
Petitioner,
v.
ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F. BELL,
PAMELA S. HAWKES, AND BASIL E. HUMPHREY,
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMICI CURIAE LOS ANGELES AREA
CHAMBER OF COMMERCE AND CENTRAL CITY
ASSOCIATION IN SUPPORT OF PETITIONER

LORI ALVINO MCGILL, PC
Counsel of Record
1056 THOMAS JEFFERSON STREET, NW
WASHINGTON, DC 20007
(914) 646-9410
alvinomcgill@gmail.com

Counsel for Amicus Curiae

i

TABLE OF CONTENTS

INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Ninth Circuit’s Decision Is Wrong . . . . . 4

II. The Ninth Circuit’s Constitutional Ruling
Will Harm the Very Communities It Aims To
Protect . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

ii

TABLE OF AUTHORITIES

CASES

PAGES

Powell v. Texas, 392 U.S. 514 (1968) . . . . . . . . . . . . . 4
OTHER
Alejandra Reyes Velarde, Feces Are Contaminating
the American River. Sacramento Wants to
Know the Source (L.A. Times, Sept. 13, 2019),
https://www.latimes.com/california/story/2019
-09-13/feces-american-river-contaminationsacramento. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Hannah Fry, LAPD officers may have been exposed
to highly infections MRSA bacteria (L.A. Times
May 7, 2019), https://www. latimes.com/local/
lanow/la-me-ln-mrsa-infection-lapd-20190507
-story.html), . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Dr. Marc Siegel, Is a Dark Ages disease the new
American plague threat? (The Hill Sept. 8,
2019) https://thehill.com/opinion/
healthcare/460442- is-a-dark-ages- disease-thenew-american-plague- threat . . . . . . . . . . . . . . . 5

iii

Scott Wilson, Hepatitis A outbreak among homeless
a byproduct of California’s housing crunch
(Wash. Post
Oct. 25, 2017),
https://www/washingtonpost.com
/national/hepatits-a-outbreak-among-homelss
-a-byproduct-of-californias-housing-crunch/20
17/10/25/e9038a62-acf9-11e7-be94-fabb0fleffb
_story.html?utm_term=.26e72d4fdd04 . . . . . . . . 5
www.lamayor.org/HomelessnessTrackingHHH . . . . 6

INTEREST OF AMICI CURIAE1
The Los Angeles Area Chamber of Commerce
(“LA Chamber”) represents more than 1,600 business
in the Los Angeles region, which represents more than
650,000 employees. It serves a diverse membership, and
its mission is to promote economic prosperity and
quality of life across the region. As the leading business
organization in the area, the LA Chamber is a critical
partner with the City of Los Angeles, Los Angeles
County, and scores of service providers in addressing
the homelessness crisis that impacts our region and
cities nationwide.
For more than ten years, the LA Chamber has been
an integral partner with the United Way of Greater Los
Angeles in launching Home For Good, a
community-driven initiative to end homelessness in Los
Angeles County.2 The LA Chamber also has supported
local Measures H and HHH, which provided significant
funding for housing and other services for the homeless
to aid the transition to permanent housing. The LA
Chamber believes such measures are critical tools in the
fight against homelessness. The Chamber is committed
to remaining engaged in local efforts to end chronic

1

Counsel for Amici Curiae states that no counsel for a
party authored this brief in whole or in part, and no party or
counsel for a party made a monetary contribution intended to fund
the preparation or submission of this brief. No other person or
entity made a monetary contribution to the preparation or
submission of this brief. Timely notice was provided to all parties,
and all parties consent to the filing of this brief.
2

2019).

See

http://homeforgoodla.org/ (last visited Sept. 24,

2

homelessness, and to improving coordination among all
levels of local government to achieve that common goal.
Central City Association (CCA) is the premier
advocacy organization in the Los Angeles region and a
leading visionary on the future of Downtown Los
Angeles. Founded in 1924, CCA represents the
interests of 400 businesses, trade associations, and
nonprofit organizations from a broad range of
industries that collectively employ more than 350,000
people in Los Angeles County. CCA’s mission is to
enhance the vibrancy of Downtown Los Angeles and
increase investment in the region through advocacy
and community engagement. CCA is deeply involved
in local policy deliberations concerning homelessness
and was part of a broad coalition that supported
Proposition HHH, Measure H, A Bridge Home project,
the No Place Like Home initiative, and many
affordable housing projects in the area, such as The
Weingart Center.
Amici are gravely concerned that the Ninth
Circuit’s decision will worsen an already crisis-level
situation in our communities and thereby harm the
very people it was intended to protect.
The current encampment crisis poses serious
threats to the safety and health of those living in and
near them. And the cascading socioeconomic impacts of
this humanitarian crisis are palpable and will only
become more severe if local authorities are prevented
from taking sensible measures to ensure public health
and safety. Many smaller and family-owned businesses
in afflicted neighborhoods are facing rising costs due to
the scarcity of employees willing to work in these

3

neighborhoods and the difficulty in obtaining adequate
insurance, in particular fire insurance, due to the
increased fire risk posed by encampments. And Amici
have observed a marked decrease in the willingness of
foreign and domestic investors to commit capital in the
Los Angeles area because of the encampment crisis and
its concomitant threats to public health and safety.
Amici believe that the current state of affairs will
deteriorate further if the Ninth Circuit’s decision
remains in place, preventing local governments in
California and elsewhere from enacting and enforcing
reasonable regulations to protect the public health and
safety—a role that falls within the core of their
traditional police power.
SUMMARY OF ARGUMENT
The Ninth Circuit’s rule is neither workable nor
compassionate. States and localities must be able to
enforce reasonable public health and safety laws of
general application, which protect all members of the
public, including those grappling with homelessness.
Communities need the flexibility to develop solutions
that work to protect all of their residents and ultimately
decrease the number of individuals living on the streets.
The Ninth Circuit’s rigid constitutional rule furthers
neither of those interests.
This Court’s intervention is needed now, because
this is a dangerous precedent that threatens the health
and safety of the men, women, and children who reside
within and near encampments. If left in place, the
decision below will utterly hamstring the efforts of
states and localities to forge sensible and compassionate

4

solutions that balance the dignity of our homeless
neighbors with the safety of the public at large.
ARGUMENT
I.

The Ninth Circuit’s Decision Is Wrong

Notwithstanding the undoubtedly good intentions
of the Ninth Circuit, its decision is both legally wrong
and terribly misguided as a practical matter. For
purposes of Eighth Amendment analysis, this Court has
correctly drawn a line between conduct and status. The
former is punishable by a law of general application; the
latter is not. See Powell v. Texas, 392 U.S. 514 (1968).
As the Petition correctly explains, the Ninth Circuit’s
holding that “the Eighth Amendment prohibits the
state from punishing an involuntary act or condition if
it is the unavoidable consequence of one’s status or
being,” finds no support in this Court’s Eighth
Amendment cases, and conflicts with the decisions of
other appellate courts. Pet. 14-26.
Moreover, for reasons also explained by the Petition
(at 32-35), the rule is impossible for federal courts to
administrate. How is a court to determine whether the
shelter bed supply in a particular city meets demand at
any given point in time? And how is a court to
determine whether a particular shelter is a suitable
option for a particular homeless individual? The Ninth
Circuit’s novel interpretation of the Eighth Amendment
invites endless expensive and time-consuming litigation
that would divert energy and resources away from
actually helping the community and people in need.

5

II. The Ninth Circuit’s Constitutional Ruling
Will Harm the Very Communities It Aims To
Protect
Absent this Court’s review, the Ninth Circuit’s
decision will utterly gut the ability of state and local
authorities to enforce essential public health and safety
laws of general application that are necessary to protect
everyone—including the men, women, and children
living in encampments and the communities that
surround them. Indeed, although the Ninth Circuit
described its decision as “narrow,” the predictable
consequences of that decision are already evident, and
far-reaching.
The situation in Los Angeles is nothing short of
dire. As a result of the proliferation of encampments,
homeless men, women, and children—and those who
serve the communities in which they reside—are
routinely being exposed to an increased and intolerable
risk of a variety of otherwise-rare, but life-threatening
diseases.3 Encampments also pose other well-known

3

Hannah Fry, LAPD officers may have been exposed to
highly infections MRSA bacteria (L.A. Times May 7, 2019),
https://www.latimes.com/local/lanow/la-me-ln-mrsa-infection-lap
d-20190507-story.html; Scott Wilson, Hepatitis A outbreak among
homeless a byproduct of California’s housing crunch (Wash. Post
O c t. 2 5 , 2 0 1 7 ) , h t t p s : / / w w w / w a s h i n g t o n p o s t . c o m
/national/hepatits-a-outbreak-among-homelss-a-byproduct-of-cali
fornias-housing-crunch/2017/10/25/e9038a62-acf9-11e7-be94-fab
b0fleffb_story.html?utm_term=.26e72d4fdd04; Dr. Marc Siegel, Is
a Dark Ages disease the new American plague threat? (The Hill
Sept.
8,
2019)
https://thehill.com/opinion/
healthcare/460442-is-a-dark-ages-disease-the-new-american-plag

6

environmental risks that are now all too common
occurrences—including the risk of widespread and
devastating wild fires and the contamination of our
water supply.4
The constitutional rule fashioned by the Ninth
Circuit guts our local governments’ ability to address
the encampment crisis, and Amici believe it will
diminish the public’s confidence in, and support for,
other important local measures aimed at improving the
plight of the homeless.
In 2016, voters in the City of Los Angeles approved
Proposition HHH, a $1.2B bond to develop housing for
homeless individuals.5 In 2017, voters in the County of
Los Angeles approved Measure H, which generates
approximately $350 million per year to fund services for
the homeless.6 Measure H will sunset in 10 years, and
Proposition HHH funds have been fully obligated.
These are significant efforts, but are not enough. As

ue-threat (predicting that leprosy will re-emerge in the United
States as a result of the encampment crisis).
4

Alejandra Reyes Velarde, Feces Are Contaminating the
American River. Sacramento Wants to Know the Source (L.A.
Times, Sept. 13, 2019), https://www.latime s . com/
california/story/2019-09-13/feces-american-river-contaminationsacramento.
5

See https://www.lamayor.org/HomelessnessTrackingHHH
(last visited Sept. 23, 2019).
6

See https://www.lamayor.org/HomelessnessTrackingHHH
(last visited Sept. 23, 2019).

7

Los Angeles County Supervisor Mark Ridley-Thomas
recently put it, “for every 133 people we house every
day with Measure H, 150 more people end up on the
streets. Tragically, two to three of them die there every
day. Incredibly, that’s double our homicide rate.”7
It is clear that the mere addition of more shelter
beds is not a viable solution to the current and
escalating crisis. That is especially true in Los Angeles,
where the homeless population is so great that it is
literally impossible to meet the Ninth Circuit’s standard
in the near future. There are many aspects to this
complex problem that go beyond housing—but the
solutions must come from within the affected
communities. The Ninth Circuit’s all-or-nothing
constitutional rule derails those efforts, threatens a loss
of public confidence in local government, and would
significantly hinder further progress toward alleviating
this crisis.

7

See https://ridley-thomas.lacounty.gov/index.php/
martin-v-boise/ (last visited Sept. 23, 2019) (statement of
Supervisor Mark Ridley-Thomas regarding his support for Los
Angeles County’s participation as amicus curiae in this case).

8

CONCLUSION
The petition should be granted.
Respectfully submitted,
LORI ALVINO MCGILL, PC
Counsel of Record
1056 Thomas Jefferson Street, NW
Washington, DC 20007
(914) 646-9410
alvinomcgill@gmail.com
September 25, 2019

